<html>
<title> - EXAMINING THE SYRIAN REFUGEE CRISIS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                  EXAMINING THE SYRIAN REFUGEE CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2013

                               __________

                           Serial No. 113-66

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

82-843 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Anne C. Richard, Assistant Secretary, Bureau of 
  Population, Refugees, and Migration, U.S. Department of State..     7
The Honorable Nancy E. Lindborg, Assistant Administrator, Bureau 
  for Democracy, Conflict and Humanitarian Assistance , U.S. 
  Agency for International Development...........................    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Anne C. Richard: Prepared statement................    10
The Honorable Nancy E. Lindborg: Prepared statement..............    17

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
Written responses from the Honorable Anne C. Richard to questions 
  submitted for the record by the Honorable Adam Kinzinger, a 
  Representative in Congress from the State of Illinois..........    49
Written responses from the Honorable Anne C. Richard to questions 
  submitted for the record by the Honorable Joe Wilson, a 
  Representative in Congress from the State of South Carolina....    53

 
                  EXAMINING THE SYRIAN REFUGEE CRISIS

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and the ranking member, my good friend 
Ted Deutch for 5 minutes each for our opening statements, I 
will then recognize other members seeking recognition for 1 
minute. We will hear from our witnesses then. And without 
objection, the prepared statements of our witnesses will be 
made a part of the record, and members may have 5 days to 
insert statements and questions for the record subject to the 
length limitation in the rules.
    Before we begin with our opening statements, I would like 
to remind my colleagues that this hearing is meant to focus 
strictly on the humanitarian crisis in Syria. It is not meant 
to be a debate on the chemical weapons situation, the potential 
use of military force, or the Russian proposal. Our witnesses 
have joined us today to discuss their area of expertise and 
responsibility, and will not be expected to discuss anything 
beyond that scope. And I thank everyone in advance for your 
cooperation.
    We're also very glad to have Mr. Smith joining our 
subcommittee today. He is the ranking member, I mean he's the 
chairman of the Africa Global Health and Human Rights 
Subcommittee. Thank you, Mr. Smith, who's been a real leader on 
refugee issues.
    The Chair now recognizes herself for 5 minutes.
    While much attention and great amounts of deliberation have 
been focused on the use of chemical weapons in the Syrian 
conflict and what the proper U.S. response may be, we must also 
continue to highlight the increasingly dire humanitarian 
crisis. Since this conflict began in March 2011, the numbers of 
those impacted have grown exponentially and are truly shocking 
and devastating.
    Nearly a full one-third of Syria's population is in dire 
need of humanitarian assistance, and has been displaced by the 
conflict. By most estimates there are now nearly 5 million 
Syrians who are now internally displaced persons. Unable or 
unwilling to flee Syria to find sanctuary elsewhere for 
whatever reason, these IDPs are extremely vulnerable.
    The vast majority of them are women and children, and the 
elderly who end up staying in unofficial shelters, unfinished 
buildings, and makeshift accommodations making it extremely 
difficult to get them the basic necessities that they require.
    There have also been over 2 million Syrians who have risked 
their lives to flee the fighting in Syria, and have sought 
refuge in other countries with over 1 million of those refugees 
being children under the age of 18.
    Over 97 percent of these refugees flee to Syria's 
neighboring countries, like our ally Jordan, or to Turkey, 
Lebanon, Egypt, and Iraq. We have seen hundreds of thousands 
flee to each of these countries, and this mass influx of 
refugees weighs heavily on their economies and their security 
situations.
    Perhaps the two countries most greatly impacted by the 
refugee crisis are Lebanon and Jordan. Lebanon is home to 
anywhere between 700,000 to 1 million Syrian refugees who are 
living with host communities or in settlements, and whose 
presence introduces a complex and potentially dangerous 
situation as we have witnessed with multiple cross-border 
incidents and spillover violence.
    While the political situation in Lebanon already is tenuous 
at best, this massive influx of refugees further destabilizes 
the country and threatens to up-end the fragile government and 
pull Lebanon into the conflict, a situation that would not only 
have serious ramifications for regional and U.S. national 
security, but would severely exacerbate the humanitarian 
crisis.
    Meanwhile, Jordan has pledged to keep its borders open to 
those fleeing Syria despite the heavy burden that this places 
on the Hashemite Kingdom of Jordan whose Ambassador is with us 
today, and I would like to briefly recognize her. Welcome, 
Madam Ambassador, and our subcommittee had met privately with 
her before this subcommittee about this refugee crisis. Jordan 
continues to be an important ally of the United States.
    Official numbers place the number of refugees in Jordan at 
well over \1/2\ million, but those numbers may be much higher, 
as we heard from the Ambassador this morning, due to the large 
number of unregistered refugees. While some Syrians live in 
camp within Jordan, most live amongst host communities. In 
fact, one camp is home to over 120,000 refugees which would be 
Jordan's fourth largest city.
    The United States through the work of the State Department 
and USAID continues to provide humanitarian assistance to those 
impacted by the Syrian conflict. We are the single largest 
contributor of humanitarian assistance for the Syrian people 
providing aid to nearly 4 million in Syria with the assistance 
of the U.N. and local and international organizations and NGOs. 
Our assistance along with the assistance provided by our 
friends in the EU, the UK, and the UAE will provide food, 
medical care, clean water and shelter for those affected by the 
conflict. This is a massive undertaking and with no end in 
sight to the Syria conflict, it is important that we evaluate 
the situation and its implications for the region, as well as 
the programs we have in place to support ongoing and future 
developments.
    Half of the Syrians in need are children who need something 
or someone to turn to. If the United States doesn't step up to 
assist them, these children may turn to the Islamic extremists 
who would seek to take advantage of their vulnerability and 
radicalize them, further threatening the stability of the 
region, and our security interest.
    For the well being of the millions of impacted, for the 
stability and security of the region, and for our own national 
security interest we must continue to seek ways to aid these 
millions who desperately need our help. With no end in sight to 
the conflict, these numbers will continue to add up, causing 
increased pressure on the region, and directly threatening the 
U.S. and our allies.
    And with that, I turn to my good friend, the ranking 
member, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman. Thanks for holding 
this hearing on what's truly a critical issue that warrants the 
most serious attention.
    I would also like to acknowledge and welcome the Jordanian 
Ambassador, Ambassador Bouran. Thank you for being here with us 
today.
    The humanitarian crisis in Syria has reached staggering 
heights. There are now 6.8 million people in need of immediate 
humanitarian assistance. I would be remiss if I didn't remind 
everyone in this room that the death toll in Syria now exceeds 
110,000, and that is just the official number.
    Back in February of this year, 8 months ago, the U.N. High 
Commissioner for Refugees told the Security Council that it was 
a moment of truth for the international community as the 
situation was ``escalating very quickly into a disaster that 
could overwhelm the international response capacity.'' That was 
8 months ago when there were just under 1 million registered 
refugees. In March, the High Commissioner warned the Senate 
Foreign Relations Committee that all of the agencies involved 
in this humanitarian response are dramatically underfunded.
    On September 3rd, the number of Syrian refugees passed the 
2 million mark. That's the count of officially registered 
refugees. There are likely thousands more that go unaccounted 
for every day.
    I'm increasingly concerned about the impact this crisis 
will have on Syria's children. Children under the age of 17 
account for 1 million of all refugees. Many of these children 
have not received regular schooling in over 2 years. Some in 
host countries face language barriers or discrimination, while 
many in camps lack access to basic materials needed for 
education.
    This is no longer just one country in turmoil, this is a 
full-blown regional crisis. There are over 460,000 refugees in 
Turkey, almost 580,000 refugees in Jordan, and over 700,000 
refugees in Lebanon. Let me put that in perspective. The total 
population of Lebanon is just under 4\1/2\ million. The Zaatari 
camp in Jordan, the world's second largest refugee camp is now 
its fourth largest city. The United Nations-run camp is chaotic 
with growing lawlessness and reports of sexual abuse, violence, 
and extremist recruitment.
    Just this week there have been reports that the number of 
Syrian refugees crossing into Jordan jumped nearly ten-fold 
last week to an average of 900 per day, its highest level in 
months. There are 40,000 waiting just over the border in Syria. 
Jordan is on the verge of an economic crisis with strains on 
its water supply and its electrical grid. Lebanon is struggling 
to absorb refugees into cities and towns rather than camps, 
creating societal tensions as competition for jobs increases.
    Last week, the High Commissioner for Refugees released a 
video of 1,300 Syrian refugees living in an underground parking 
lot in Lebanon. We could go on and on with tragic stories like 
this.
    I understand that a humanitarian response of this scale is 
not easy, and I want to thank Assistant Secretary Richard and 
Assistant Administrator Lindborg and their staffs for their 
tireless work. I want to thank the hundreds of implementing 
partners and the NGOs that are on the ground risking their 
lives to provide food and medical care to the Syrian people. 
They are doing an exceptional job in extraordinarily difficult 
circumstances, and I don't think that they get the credit that 
they deserve. And perhaps after this hearing they will receive 
even a little bit more.
    Despite these difficulties, the United States must continue 
to lead the worldwide humanitarian response effort. Assistant 
Secretary Richard, I have no doubt that you and your State 
Department colleagues have had countless meetings and phone 
calls with our partners around the world reiterating the need 
for robust and swift response as the number of refugees 
continues to climb. And I do believe that we have a moral 
obligation to help those in need. We do, but we also can't do 
it alone.
    The United States has given over $1.1 billion. We know that 
many of our friends around the world can do more. Assistant 
Secretary Richard, I hope our discussion today will shed some 
light as to why there has been a relative lack of funding 
coming from some of our allies.
    In addition to increased funding, what more can we be doing 
to strengthen host countries? What can we do to reduce the 
tensions between host country populations and refugees? Shall 
we continue to funnel most of our aid through the United 
Nations? What conversations are taking place with regional 
partners on the need to keep open borders, and what would be 
the impact of closing those borders?
    Unfortunately, this crisis doesn't appear to be ending in 
the near future. Even if a political settlement is reached in 
Syria, the humanitarian fallout will likely impact the region 
for years to come. Despite the immediate and ongoing nature of 
this response, we have to plan for the long term and we have to 
be willing to focus for the long term.
    I want to thank the witnesses again. I look forward to what 
I hope will be an informative and productive session, and I 
yield back.
    Ms. Ros-Lehtinen. Thank you. Dr. Yoho of Florida is 
recognized.
    Mr. Yoho. Madam Chair, I have no comments. I look forward 
to the testimonies. Thank you.
    Ms. Ros-Lehtinen. Thank you. Mr. Cicciline of Rhode Island.
    Mr. Cicciline. Thank you, Chairman Ros-Lehtinen, Ranking 
Member Deutch for holding today's hearing on the Syrian Refugee 
Crisis.
    The current situation in Syria is deeply troubling. For 
over 2 years, President Bashar al Assad has attacked both rebel 
forces and civilians within Syria. In the past several weeks 
we've had many, many discussions regarding the use of chemical 
weapons in Syria, and how the United States and the world 
should respond to such use.
    In our efforts to come up with a solution regarding 
chemical weapons we have largely lost sight of the other 
ongoing humanitarian issues surrounding this crisis. Over 2 
million Syrians have been forced to seek refuge in neighboring 
countries, and millions of others have been displaced 
internally. It is clear that the international community must 
do more to assist those most in need, especially when one 
considers that roughly half of all Syrian refugees are 
children.
    I am pleased that we will focus today on the global 
responses to the ongoing refugee crisis caused by the conflict 
in Syria. I hope this discussion will recognize the particular 
difficulties facing the most at risk Syrians, especially all 
minority groups.
    The message must be clear, however. There must be an 
ongoing international response to this grave crisis which, of 
course, includes the United States, but also with strong 
support from the rest of the world. And I, too, want to 
acknowledge the Ambassador who is with us today from the 
Kingdom of Jordan who shared with us some important information 
about the challenges facing Jordan in this work, and I want to 
recognize the extraordinary approach of many, many generations 
of welcoming refugees into the Kingdom of Jordan, and the care 
with which they are attempting to provide services to those 
refugees, and the responsibility of the entire world to be part 
of that effort. And thank you, Madam Ambassador, for your 
earlier words. I look very much forward to hearing from our 
witnesses today on this very important subject, and I yield 
back.
    Ms. Ros-Lehtinen. Thank you, sir. Mr. Smith of New Jersey 
is recognized.
    Mr. Smith. Thank you very much, Madam Chair, and I 
appreciate the courtesy extended to me and others to sit in on 
this panel.
    The Syrian civil war has become the worst ongoing 
humanitarian crisis on earth according to the World Health 
Organization. The number of refugees fleeing into neighboring 
countries expanding almost ten-fold to more than 2 million in 
the past year with another 5 million Syrians internally 
displaced. Civil war-related deaths have risen by almost a 
factor of four to well in excess of 100,000 in that same 
period.
    Humanitarian assistance is now reaching 3.5 million Syrians 
across the country. Consequently, as USAID Assistant 
Administrator Nancy Lindborg will testify, the current U.N. 
Humanitarian Appeals for Syria represent the largest total in 
the history of U.N. appeals. They now comprise nearly half of 
the U.N.'s entire global appeals. However, the generosity of 
the international community has run into significant obstacles. 
According to a recent report by the U.N. Commission on Inquiry 
on Syria, there have been a string, and I quote him here, ``of 
systematic attacks on hospitals and medical staff. Attacks on 
hospitals and health care facilities and their staffs were 
documented in Hama, Homs, Idlib, Daraa, Ar-Raqqah, and 
Damascus. Syrian Government forces shelled a field hospital in 
Hama killing and injuring medical personnel and destroying the 
facilities. Rebel fighters from Farouq Brigade attacked a 
national hospital as part of a broader offensive on Homs making 
no attempt whatsoever to protect civilians, or patients, or 
medical personnel.''
    Ms. Lindborg will point out in her testimony that one of 
the NGOs that we partner with, there are some 37 medical staff 
who have been killed, 21 injured, and 13 arrested or missing. 
This is absolutely unconscionable for either rebels or Assad's 
troops to be targeting medical personnel as they try to save 
the bleeding and the wounded.
    U.N. Commission Report cites violation of international law 
again by both government and rebel forces who have positioned 
troops, snipers, and even tanks in and around medical 
facilities. The Red Crescent has seen 22 of its workers in 
Syria killed in instances that they believe were intentional 
targeting.
    Finally, the refugee IDP situation in Syria as a result of 
Syria's human rights violations that are currently going 
unchecked. That's why I and 15 of our colleagues last week 
introduced House Concurrent Resolution 51 to create a Syrian 
War Crimes Tribunal that will begin the process of establishing 
the culpability of fighting forces in Syria, and provide the 
certitude of punishment for those who commit these atrocities.
    I thank the chair.
    Ms. Ros-Lehtinen. Thank you very much. Ms. Meng of New 
York. Thank you.
    Ms. Meng. Thank you, Madam Chair, Ranking Member, and our 
witnesses for being here today. I look forward to hearing from 
you about the current state of the Syrian refugee crisis.
    This is a great tragedy which we do have an obligation to 
address. It's necessary to look beyond the numbers and the 
stories here. We must consider the effects of the refugees on 
Syria's neighbors and regional stability. We must consider who 
the refugees are and whether they are current or future friends 
of the United States.
    In assessing the American response we need to balance the 
obligation to act with a need to protect our limited resources 
and identify core American objectives. I look forward to the 
insights of today's witnesses on how best to achieve all these 
goals in relation to the Syrian refugee crisis.
    Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you very much. Now I'll recognize 
Mr. Chabot of Ohio who is the subcommittee chairman on Asia and 
the Pacific.
    Mr. Chabot. Thank you, Madam Chair, for calling this 
important hearing this morning to examine a critical issue 
which in light of all the bad news coming out of Syria could 
otherwise be overlooked, and that's the refugee crisis not only 
affecting displaced Syrians who have fled the brutal Assad 
regime, but the neighboring nations who are absorbing probably 
millions of refugees.
    We know that countries like Lebanon and Turkey, Iraq and 
Egypt are hosting fleeing Syrians. And Jordan, as it has 
historically done with Palestinians, Iraqis, and now hundreds 
of thousands of Syrians is again providing refuge for its 
neighbors.
    It's important to note that an unchecked influx of refugees 
can overload a host country's infrastructure and destabilize 
its own civil society, so I think it's an important issue and I 
look forward to hearing our witnesses, and specifically them 
detailing the role our Government is playing and what kind of 
assistance and cooperation the region is getting from the 
international community.
    I yield back.
    Ms. Ros-Lehtinen. Thank you. Excellent opening statements, 
and we're so pleased now to turn to our witnesses. We've got 
two great panelists.
    First, we welcome Ms. Anne Richard, Assistant Secretary of 
State for the Bureau on Population, Refugees, and Migration. 
Prior to this position, Ms. Richard was the Vice President of 
Government Relations and Advocacy for the International Rescue 
Committee, and has served in numerous positions in government, 
including at the State Department, the Office of Management and 
Budget, and the Peace Corps.
    Ms. Richard has authored several monographs, reports, and 
opinion pieces on issues related to foreign assistance and 
humanitarian crises.
    We also welcome Ms. Nancy Lindborg, who is the Assistant 
Administrator for the Bureau for Democracy, Conflict, and 
Humanitarian Assistance at USAID where she leads efforts 
focused on crisis prevention, response, recovery, and 
transition.
    Since being sworn into office in October 2010, Ms. Lindborg 
has led teams in response to the ongoing Syria crisis, the 
Sahel 2012, and Horn of Africa 2011 droughts, the Arab Spring, 
and numerous other crises around the world.
    Prior to joining USAID, she was President of Mercy Corps 
for 14 years.
    Thank you, ladies, for being with us, and we will begin 
with you, Ms. Richard.

     STATEMENT OF THE HONORABLE ANNE C. RICHARD, ASSISTANT 
SECRETARY, BUREAU OF POPULATION, REFUGEES, AND MIGRATION, U.S. 
                      DEPARTMENT OF STATE

    Ms. Richard. Thank you very much, Madam Chair, Ranking 
Member Deutch, members of the subcommittee, and also I think 
we're privileged to have other chairs of the other 
subcommittees here which shows the seriousness, I think, with 
which you are taking this crisis, for which we are very, very 
grateful. We're very grateful you're calling attention to this 
enormous crisis.
    I want to thank you for holding this hearing, and also 
express our appreciation for the resources authorized and 
appropriated by the Congress. These funds are saving lives and 
easing the suffering of millions of people.
    Please accept my longer testimony for the record.
    Ms. Ros-Lehtinen. Without objection.
    Ms. Richard. What I'd like to do is speak very quickly and 
briefly about the main points. This crisis is vastly different 
than 1 year ago, and alarmingly so. Last September we were 
concerned about a refugee population of about 230,000, and 
today it stands at 2 million, so nearly 10 times that earlier 
number. Combined with 4 million or 5 million people now 
displaced inside Syria, as you've said nearly one-third of 
Syria's population has left their homes.
    This is now the largest displacement crisis in the world. 
To put that in perspective, imagine the entire population of 
Washington, DC, being forced from their homes and then double 
that number. More people have fled the country than either of 
the crises in Rwanda or Bosnia. Two-thirds of the refugees are 
women and children.
    The numbers above are shocking by themselves, but behind 
them are millions of individual tragedies. I have met families 
blown apart by the violence; fathers killed or missing, the 
elderly suffering from lack of medical care, children 
traumatized by what they've witnessed. We have seen a widow 
struggling to find food for her five children and toddlers 
horribly disfigured by bombings. Families live in shanty towns 
with open sewerage prey to disease and exploitation.
    The point of these images is to stress that amid the 
discussion of the Syrian regime's atrocities and the political 
debates about the best way forward, our efforts, as leaders 
among nations, should continue and even intensify to assist the 
innocent Syrian civilians.
    The United States is not taking on this challenge alone. 
Turkey, Jordan, Lebanon, Iraq and Egypt have allowed the vast 
majority of the 2 million refugees to cross into their 
territory. Other donors have provided important assistance, and 
in the midst of this tragedy U.S. assistance is saving lives 
and making a real difference.
    The United States has provided $1 billion in aid since the 
crisis began. Our aid, channeled through United Nations 
organizations and reputable international non-governmental 
organizations helps get the widow with five children linked to 
one of our partner non-governmental organizations that provides 
food and medical assistance.
    UNICEF efforts help insure the horribly wounded 3-year-old 
I mentioned got medical attention. The toys UNICEF brought made 
him smile for the first time in months.
    Beyond food, medical care, and other traditional 
assistance, along with USAID, we are using innovative methods 
to address the urban population providing food vouchers and 
debit cards for use in local markets, and cash assistance to 
help refugees pay rent. We support programs to keep children 
protected and to prevent and respond to sexual and gender-based 
violence.
    Overall, we are helping millions of people, but this 
assistance is spread thin, many remain very difficult to reach 
and we have many concerns. We need to help not only refugees in 
camps, but also those living on their own, or with relatives in 
villages, or cities where hundreds of thousands of destitute 
families are trying to survive.
    Increased assistance by other donors is critical to get 
help to more people, development funding from international 
leaders like the World Bank is needed in addition to 
humanitarian assistance to help the countries that neighbor 
Syria. Lebanon, Jordan, and Northern Iraq, in particular, need 
support for their economies, infrastructure, and public 
services.
    I remain concerned about safety in refugee camps, about the 
spread of disease in camps, and overcrowded neighborhoods, and 
the many Syrian children who are not in school. And we support 
programs to tackle each of these challenges.
    Michael Clawson of the Save the Children met with refugees 
in Amman on Monday. He sent me an email and told me that one 
10-year-old girl he met whose father, a taxi driver, had been 
missing in Syria for 1 year, and now lives in East Amman with 
her family said she wants to grow up and be a doctor because if 
something happens to you or someone dear to you, you can help 
them. I was so touched by that. This girl who's lost so much 
wants to help other people. That's the future orientation we 
all need to nurture in these children.
    Our greatest concern, of course, is for those still inside 
Syria who remain vulnerable to attack and whom aid agencies 
often cannot reach. What good is getting aid inside Syria if 
the aid recipient is caught in the crossfire, bombed, or gassed 
by his or her own government?
    It is well known that war is not ended by more and better 
aid deliveries. Peace must be negotiated and we salute our 
colleagues, American diplomats and their counterparts from 
other countries striving to do so. Until then, we will urgently 
need to continue our work and need your support, and the 
support of the American people in our efforts. I look forward 
to your questions.
    [The prepared statement of Ms. Richard follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Ms. Lindborg.

    STATEMENT OF THE HONORABLE NANCY E. LINDBORG, ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN 
     ASSISTANCE , U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Lindborg. Chairman Ros-Lehtinen, Ranking Member Deutch, 
members of the subcommittee and guests, thank you very much for 
holding this hearing today, and allowing us to focus attention 
on the very serious humanitarian crisis unfolding in Syria and 
the region. And a special thanks for your continued support for 
the humanitarian programs here, and really around the world. 
This represents the best of American values, and it is making a 
difference in the lives of millions every day. And I welcome 
the opportunity to update you on the humanitarian crisis, our 
response, and the continued challenges because the one constant 
in the Syrian crisis is the continued toll on the Syrian 
people.
    As a number of you all have noted, children are out of 
school for the last 2 years, women are enduring rape and 
violence, the one-third of Syrians who are forced out of their 
homes and more Syrians who are now forcibly displaced than 
anywhere else in the world. The pace of escalation, as noted, 
is truly staggering, and the numbers are hard to truly 
comprehend.
    Just in the past year, death rates have gone from 26,000 to 
more than 100,000. There is an estimated 5,000 people killed 
every month, many of them women and children. The number who 
need our help inside Syria 1 year ago was 2.6 million, now it's 
more than 6.8 million. Imagine the equivalent of all of 
Vermont, New Hampshire, Maine, and Connecticut, all of those 
populations combined needing humanitarian assistance.
    So, as the crisis has escalated we have also accelerated 
our humanitarian response. Since last year we have doubled the 
number of partners that we have working inside Syria. We've 
shored up systems and supply lines to increase our ability to 
reach people throughout the country even in conflict that 
continues to move around.
    Our assistance is more than $1 billion region-wide, and 
we're reaching 3.5 million people inside Syria in all 14 
governates. We're working through all possible channels to 
provide life saving assistance, and we're focusing on three key 
areas that provide a lifeline for people who are under siege 
inside Syria.
    The first is medical care, and we started 2 years ago 
really focusing on trauma care. As the conflicts persisted 
we've had to broaden that out to meet medical needs of women 
and children who no longer have access to health care, and we 
now support about 260 medical facilities across Syria.
    When warm weather hit last year we were worried about 
communicable diseases spiking so we established an early 
warning system that enables us to have early disease protection 
and a fast response. As noted, women and children especially at 
risk, gender-based violence is rampant inside Syria, so this is 
a special focus of our programming.
    Secondly, food assistance. We are helping to feed 3 million 
people inside Syria, and more than 1 million refugees every 
month through the World Food Program and our NGO partners. 
We're meeting those needs using the flexible mechanisms through 
our Emergency Food Security Program. This lets us do local 
regional purchase and food vouchers. And recently there was 
just a flood of refugees that went into Iraq, 44,000 in 1 week. 
We were able to airlift 15 metric tons of USAID nutritional 
bars to get there fast and meet their needs.
    I was recently in Beirut and Amman, and in both cities I 
met with groups of women, and they have these stories of having 
to grab whatever they could as the bombs are falling. They're 
grabbing shoes, clothes, their children, they're watching bombs 
destroy their homes and their villages. So, they often have 
nothing, and they're rotating as they flee conflict often two 
to three times being displaced, so we also focus on vital 
relief supplies, as well as clean water and sanitation as they 
are displaced around the country.
    Three enormous challenges; the first is access. We are not 
able to reach everywhere we need to inside Syria. We've seen 
some breakthroughs with cross line assistance, but a recent 
U.N. Cross Line trip to Aleppo supposed to take 3 hours, it 
took 3 days because they had to navigate 50 checkpoints along 
the way. At every chance we continue to push for greater 
humanitarian access, including cross-border.
    The second is security. Aid workers continue to be 
targeted. One of our partners, as Mr. Smith noted, has lost 37 
medical staff, 21 injured, 13 arrested. Let me underscore that 
we would be nowhere without the courage of the humanitarian aid 
workers. Thank you for honoring them. They risk their lives 
every single day. And the most profound security environment 
means that we have to prioritize the safety of our partners and 
the communities that they serve.
    The third challenge is resources. As noted, this is an 
enormous appeal. It's a protracted crisis that is now a 
regional crisis and an international crisis that requires the 
entire international community to step up to the plate. We're 
working to develop a comprehensive platform that enables us to 
bring our development assistance in line with our relief 
assistance, particularly in the communities in Jordan and 
Lebanon where the refugee burden is stressing key 
infrastructure. Our contingency funds like the USAID Complex 
Crisis Fund is being deployed to help communities meet these 
needs.
    Humanitarian assistance will not end the bloodshed, but it 
is saving lives. It's helping alleviate suffering. It is a 
critical lifeline to people in need, and we will remain very 
committed to providing that kind of assistance.
    Thank you so much for your support, and I look forward to 
your questions.
    [The prepared statement of Ms. Lindborg follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you to both of you for the great 
work that you do, and all of the folks that you help.
    I wanted to ask two questions, one on radicalization and 
another one on gender violence. As you have pointed out, the 
vast majority of those impacted by this crisis have been women, 
children, and the elderly. Alarmingly high number of Syrian 
children not in school, and refugee and IDP kids seek anything 
to latch onto to attempt to escape their hardships, and 
sometimes that would embrace--they could embrace a radical 
extremist form of Islam that is prevalent in the region, and is 
always looking for new recruits, vulnerable, angry youth.
    What can our agencies, USAID and the State Department do, 
and other agencies, to insure that these kids don't embrace 
this extremist ideology, but instead embrace the values of 
peace, of freedom, respect for human rights, religious freedom? 
Are we winning this battle, and what more can we do that we 
aren't doing now? How can we work with agencies like UNICEF to 
reach these children and get them the education that they need 
so we don't see, as you referred to in your written testimony, 
Ms. Richard, a lost generation of Syrian children?
    And next on gender violence, as you pointed out there have 
been terrible reports of gender-based violence, forced or 
coerced child marriages in some of the Syrian refugee 
communities. What can we do? What are we doing in conjunction 
with other international NGOs and the U.N. to expand and 
improve services to respond to gender-based violence, increased 
access to safe spaces, awareness that there is access to 
professionals who can provide support to victims? And what can 
we do to empower girls, and women, and raise awareness of their 
rights, and give them other options rather than having to enter 
into an all too early marriage? Thank you, ladies.
    Ms. Richard. Well, on the issue of children, we have 
programs in all of the places that refugees are arriving to 
help the children, especially, because we don't want to see 
them idle or just left out in the open, or preyed upon by 
adults or others. So, in Jordan where children make up 
approximately 54 percent of the refugees, U.S. funding supports 
programming for safe spaces for children, access to schools, 
and provides childhood immunizations. And I visited some of the 
safe spaces for children in the Zaatari camp, and kids there 
were like kids anywhere. They were playing, they were happy, 
they were singing. It's a nice counterpoint to some of the 
horrible things I see, to spend time with kids when I travel. 
And some of that is run by UNICEF with our funding, and it's a 
really good program. And there's several of those in Zaatari, 
and I think we need more.
    In Lebanon, we are--more than 115,000 children have 
received counseling and trauma services from UNICEF, and we're 
trying to--because children there in Lebanon are not in camps, 
we're trying to reach them in the places where they are, and 
they're living in very overcrowded conditions. And we're very 
concerned that throughout the region children are not going to 
school. And going to school is one of the safest places for 
children to be, and it keeps them interested and educated, and 
gives them a future.
    It's important to point out, perhaps, that in Iraq recently 
we were talking about the influx of over 60,000 new Syrian 
refugees. U.S. humanitarian partners are identifying children 
separated from their families to reunite them with their 
families, and that's a very important piece of the humanitarian 
work, as well, is bringing families back together.
    I want to quickly also before turning to Nancy mention that 
we are very concerned by reports of gender-based violence, 
including sexual violence. We're working very closely with the 
humanitarian partners.
    One of the basics is that we build into our aid programs a 
focus on the needs of women and girls so that they get their 
basic needs covered, shelter, food, clothing, water and 
sanitation. And then they're not just pushed to the side by the 
biggest guy in a camp or in a distribution line.
    We encourage all our humanitarian partners to consult with 
women and girls, ensure they have access to assistance, address 
their unique needs, and identify the risks.
    In addition to that, though, we try to fund specialized 
services and support aimed at preventing and responding to 
violence, exploitation, abuse. This includes medical and 
counseling services for rape survivors. We already mentioned 
the safe learning and healing spaces for children, particularly 
girls, in efforts to raise awareness about the rest of urgent 
issues like early marriage. So, it's not just one thing, it's a 
range of services. And as Nancy knows, because we've been 
talking about this practically on a weekly basis lately, we 
need to as humanitarian agencies do a better job of preventing 
bad things from happening in the first place, in the early 
stages of a crisis, and not just help the victims later on. So, 
we're trying to really focus on that piece in the coming days. 
Thank you for your question.
    Ms. Lindborg. Well, as you can tell this is an issue that 
we're very seized with, and all the approaches that Anne 
identified we're working with our partners inside Syria, as 
well. There's the additional challenge, of course, of people 
moving around, a lot of the schools are occupied by internally 
displaced families, but we do work through all of our partners 
with an emphasis on being very aware of specific gender needs, 
and trying to provide that protection. The child services 
through our network of supported health clinics and hospitals, 
there's a focus on providing assistance for victims of rape or 
gender-based violence, and making sure that the right kind of 
supplies are available both in our emergency supplies and 
through our health clinics.
    Psycho social counseling is really important, as well, 
because the trauma that people go through, it will have 
generational impact, so it's critical that as much as possible 
people get the kind of help they need.
    I would just add one thing, and that is we're also really 
concerned about trafficking of young girls. And through our 
mission in Jordan, we have a program that is working to raise 
the awareness of this as an issue to pay close attention to. 
Nothing is more horrifying than thinking of being a young girl 
in Tunisia who ends up being trafficked in Zaatari camps, so 
these are the kinds of issues that we are absolutely seized 
with.
    Ms. Ros-Lehtinen. Thank you very much for your answers. Mr. 
Deutch.
    Mr. Deutch. Thank you, Madam Chairman.
    I laid out some questions in my opening statement that 
hopefully we'll be able to get back to, but I wanted to just go 
in a different direction for a moment.
    I am incredibly thankful, as we said earlier, for the 
tireless work that's being done now by the Bureau, and by 
USAID, and all of our partners, but I'm concerned about this 
constant stream of reports that we get. And I want you to chime 
in on this, that the Syrian people continue to think that the 
United States isn't doing anything. We've heard reports that in 
refugee camps countries like South Korea and Saudi Arabia are 
openly proudly branding their assistance, dramatically less 
than ours, while we may have a tiny U.S. flag under the U.N. 
logo indicating that we're one of many countries that 
contribute to funding to the U.N.
    Equally troubling is when the President or Secretary goes 
on TV and pledges hundreds of millions of dollars to the 
crisis, and then even though we're the largest donor and one of 
the only donors to actually fulfill--to meet all of our 
pledges, the Syrian people see no direct U.S. assistance, and 
think that not only are we doing nothing, but then think that 
we're making false promises. Is that accurate, are those 
reports accurate?
    Ms. Lindborg. You know, we have paid a great deal of 
attention to looking at all the ways that we can help the 
people of Syria understand that the people of the United States 
are standing with them, and in an environment where our aid 
workers are being targeted. So branding is one part of the 
solution, and we have been able to get branded plastic sheeting 
into the IDP camps in Northern Syria.
    We're also----
    Mr. Deutch. I'm sorry, branded plastic?
    Ms. Lindborg. Branded plastic sheeting which is used--big, 
heavy duty plastic sheeting that's used for shelter for people 
who need temporary shelter. It's a staple of the relief world.
    We've also just negotiated with WFP to ensure that all of 
the vouchers and all of the electronic cards that they use in 
our food programs in the refugee camps have the U.S. flag and 
the U.S. logo on it, so that will start in Jordan in a couple 
of weeks, and then we'll move that to Lebanon, as well. It's 
accompanied with a campaign of posters and banners.
    Mr. Deutch. I'm sorry. How many people will receive those 
cards?
    Ms. Lindborg. We feed--it will probably be close to 1 
million people who receive those cards.
    Mr. Deutch. Okay.
    Ms. Lindborg. And it's in Jordan and Lebanon. And then 
we'll--as I noted, we got the USAID nutritional biscuits 
airlifted almost immediately to the refugees in Iraq.
    We also--our partners are working inside Syria with MOUs 
with the relief committees and with the bakeries in many 
instances so there's awareness at the community level that the 
assistance is coming from the American people.
    We continue to also do media campaigns. Anne and I have 
both traveled repeatedly to the region. I was just there a few 
weeks ago. One of the main things we do is Arab language media, 
and media that beams directly into Syria, so that they hear 
repeatedly that we are providing this assistance, and we're 
working with our partners to provide all kinds of social media 
information, and we do a regular update of the Syria diaspora.
    Mr. Deutch. I appreciate that, and I applaud those efforts, 
and anything we can do to be helpful, please let us know.
    Ms. Lindborg. These kinds of hearings are helpful, as well, 
so thank you for holding this hearing because it does allow us 
to put an underline on all the assistance that the United 
States is doing.
    Mr. Deutch. Great. Circling back to something I had brought 
up earlier. Assistant Secretary Richard, with a few exceptions 
the international response to the difficulties in Syria has 
been on the whole disappointing. The U.N. appeal for Syrians is 
less than 50 percent funded, most donors aren't meeting their 
pledges, many wealthy countries are donating very little, if 
anything at all, to relief efforts.
    I understand that in addition to implementing relief 
assistance, the Bureau is essentially responsible for 
humanitarian diplomacy, as well, so what efforts are the State 
Department and the Bureau leading to implore our allies to 
fulfill their funding needs? And is the humanitarian crisis 
being stressed in every major diplomatic meeting around the 
world? Is this on the agenda in every major meeting where we 
are involved?
    Ms. Richard. We are working to get this on the agenda of 
every major meeting we possibly can, and we're making real 
pests of ourselves on the 7th floor of the State Department. 
And I can say with assurance that we're getting on the agenda--
--
    Mr. Deutch. I'm sorry, I'm almost out of time, but you're 
making pests of yourselves to whom?
    Ms. Richard. To the people that handle the paper up there, 
because we keep running down the hallway with talking points 
about the urgency of asking everyone the Secretary meets with 
to please support the humanitarian efforts that the world is 
putting together.
    Mr. Deutch. I would just in my last remaining seconds, if I 
could have 15 additional seconds, Madam Chairman, it is--there 
should be no reason that you should have to pester anyone at 
the State Department to make sure that on the agenda of every 
meeting taking place is the greatest humanitarian crisis taking 
place in the world today, and the role that the United States 
is playing to help address it. And I yield back.
    Ms. Richard. I agree with you, and I think it's probably my 
own zealous nature that I'm over-papering the 7th floor more 
than they need because they're allies in this, of course. And 
this week we had a meeting in Stockholm on Monday of the U.N. 
Emergency Directors. My deputy was there. Next week we have 
several meetings around the U.N. General Assembly that will 
focus on the humanitarian piece of this. And the week after 
we'll be in Geneva for the Executive Committee meeting of the 
U.N. High Commissioner for Refugees. Normally, I leave the 
delegation to that. I asked Bill Burns, our Deputy Secretary, 
to lead it this year, so he's flying in for Monday because of 
the importance of this. And it wasn't a very hard thing to 
convince him.
    Mr. Deutch. And even if we are, and you are not here to 
talk about chemical weapons, but if the current negotiations 
and the agreement, if everything plays out exactly as we want, 
and every last bit of chemical weapons is removed from Syria in 
3 months, 6 months, in 1 year, whenever it is, this crisis will 
remain. And that's the point that I am so glad that you 
continue to press and will do so especially at the U.N. when 
the General Assembly meets. Thanks, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch. Mr. Smith, 
the chairman of the Africa Subcommittee, is recognized.
    Mr. Smith. Thank you very much, Madam Chair. And thank you, 
Secretary Richard, thank you, Ms. Lindborg, for your 
extraordinary efforts on behalf of those who are suffering each 
and every day.
    I have just a few questions. Has the targeting of medical 
personnel been the subject of diplomatic efforts, of Secretary 
of State Kerry, and what has been the feedback? I mean, it 
seems to me if there's anyone in this crisis that you don't go 
after the people who are trying to save other people's lives. 
And what can be done to increase security aid? That was my 
first question.
    Second, I know, Ms. Lindborg, you mentioned the issue of 
trafficking, and I thank you for doing so. And I'm wondering in 
the refugee camps themselves are there plans in every one of 
those camps? We know that the nefarious networks of human 
trafficking love to prey upon people in vulnerable situations 
whether it be manmade like war, or nature-made like a tsunami, 
or whatever. Is there a specific protocol established in these 
camps to ensure that the traffickers are not going in and 
kidnaping especially young girls?
    Last year, thirdly, I chaired a hearing on the plight of 
Christians in Syria. And the consensus among our private panel 
was that this is a genocide. The Christians are not dying 
because they're in the way or it's collateral damage. They are 
being deliberately targeted precisely because they're 
Christians, and many of the rebels are the ones, particularly 
al-Qaeda rebels, are the ones that are doing it. And I'm 
wondering in the population in the refugee camps and the mass 
exodus that's occurring if there is a breakdown not only by 
ethnicity, but especially on the religious side, Sunni, Shia, 
and Christian, which would be helpful to know who is it that's 
fleeing? Maybe it's everyone, but is there any kind of effort 
to break that down?
    Fourthly, the NGO partner, I don't know if you wanted to 
identify them, maybe for reasons you wouldn't want to, who have 
suffered and died.
    Then, finally, on surveillance. We know in large numbers of 
people in the refugee situation all get pulled into a camp like 
this that there are infectious disease challenges. And I'm 
wondering if any have emerged yet, and whether or not CDC is 
tracking to ensure that something does not have a breakout?
    And you did mention the psychological trauma, Ms. Lindborg. 
How are people identified? You know, you did mention in 
country, at least, you know, we've got 260 medical facilities. 
How are they dealt with? What kind of medical, psychological 
treatment are we providing in the international community?
    Ms. Lindborg. Thank you for those questions. Let me tackle 
some of them, and I'll turn the camp questions over to Anne.
    Starting with the disease surveillance, what we were most 
concerned about, and this in inside Syria, not in the refugee 
camps, were as the system broke down that there would be an 
emergence of polio, of measles, schistosomiasis, and those 
kinds of diseases, cholera, that once they emerge they can 
quickly spread. So, CDC has been very active working with us 
along with the Syria Opposition Assistance Coordination Unit to 
set up a system that does allow that kind of early detection. 
It's about communication and then having the ability to do the 
fast response.
    On the psycho social question, you know, inside there's 
less ability to do more sophisticated psychological counseling, 
but it's an opportunity to help bring people together in spaces 
where they can move past the more direct trauma. There are a 
variety of faster techniques that help people deal with trauma, 
and engage in activities that give them a more hopeful way 
forward and feel safer.
    On the Christian questions, you know, we are working 
throughout the country on the basis of need. There are 
definitely Christian communities, particularly in the so called 
Christian Valley in Homs, Tartus, and Aleppo, and we have 
definitely seen needs. We are able to provide assistance.
    We see that people as they leave whether inside Syria or in 
the surrounding region, they tend to go to places where they 
feel safe. And sometimes that's based on ethnicity, but not 
always.
    I met with a woman in Beirut who had fled her home, and she 
was so upset at what her country had become. She said I don't 
recognize this division, this hatred between people. This is 
not who we are as Syrians. So, even as this happens I think 
there is still a basis of Syrians who really want to return to 
a place where there's not that tearing between divisions.
    The targeting of medical workers, I can only echo your 
absolute unconscionable comment. This is unconscionable, and it 
is happening with a variety of people doing that targeting, 
both the regime and some of the more extremist groups. There 
is, unfortunately, not an easy fix for that. We wish there 
were. I think accountability will have to be a part of the 
larger set of accountabilities that come out of this kind of a 
war.
    Mr. Smith. Is it being raised at the diplomatic level?
    Ms. Lindborg. Absolutely. This is something that we will 
raise at the UNGA meetings next week, that Anne mentioned. It's 
part of needing better access and better security. The 
humanitarian crisis, as Mr. Deutch said, this will not go away, 
and we need to look at all the ways that the international 
community can come together to provide greater security and 
greater access for these people who have suffered now for 2 
years.
    Ms. Richard. Can I add on to that? You know, we fund the 
International Committee of the Red Cross, it's one of our major 
partners in responding to crises overseas. And they're 
throughout the region, including inside Syria. And one of their 
campaigns that preexist the Syria crisis is that we have to 
stop harming medical personnel, medical facilities, hospitals, 
clinics, patients, the doctors in crises. And we've seen in 
Syria that they've been actually targeted to a horrible effect 
because the facilities have been harmed, and then the doctors 
have fled, so it's a real challenge getting the medical care 
into the country that is so desperately needed there.
    This is one of the things we've talked to Valerie Amos 
about, the Emergency Response Coordinator, the U.N.'s top 
humanitarian, and she was looking at ways through discussions 
in the U.N. Security Council to try to get agreement on the 
importance of some basic humanitarian principles. And as you 
know, it's been very, very difficult to get Security Council 
resolutions produced. And you know, I'm sure you're quite well 
aware of the sort of dynamic up there, but we have not given 
up. We keep trying to look for opportunities, and next week is 
one, to get agreement among the major countries involved on 
some basic protections for people.
    On trafficking, we are doing a couple of things. One is, 
our partners like UNICEF, like Save the Children that work 
focused on children in the camps are trying to make sure that 
someone is keeping an eye on the kids and that they're given 
safe places to go.
    The flip piece of that is trying to enhance the security of 
a camp like Zaatari camp, and we're working with the Jordanian 
Government, the Jordanian authorities to have more police 
patrols inside the camp, more training for police. And then 
also we've got a program that I mention in my testimony, my 
written testimony with our sister bureau, the International 
Narcotics and Law Enforcement Bureau to train refugees so that 
they can have a community watch to enhance their own security. 
But one of the reasons people allow their daughters to be 
trafficked is because they think that their situation is 
desperate, and so we have got to get them to feel like they 
have a future and that this is not the best option for their 
daughters.
    Finally, on Christians fleeing, you know, I think we're all 
more sensitized to religious minorities in the Middle East 
since the Iraq situation, and this conversation with the 
committee on the importance of keeping an eye out for 
minorities has been, as you all know, has been an issue of the 
last few years, and that's no different now with the Syrian 
crisis. You know, it's a majority Muslim region, but having 
traveled to the region, there is a tremendous history of--you 
know, when I went to Syria, I kept realizing all the place 
names were from St. Paul's travels, so we have to be aware of 
different groups in the region and their different needs, and 
tailor our response to their needs.
    Mr. Smith. Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Smith. Mr. 
Cicciline.
    Mr. Cicciline. Thank you, Madam Chairman.
    I have four questions I'll just set out, and then whoever 
is in the best position to answer them. Of the 6.8 million 
people who are currently in need of humanitarian aid, what is 
your best estimate as to the percentage of individuals that are 
actually receiving assistance? Two, to follow-up on Mr. 
Deutch's question, we hear very often about sort of lack of 
understanding of the United States effort. Obviously, we're 
leading in terms of our financial support. Many countries have 
not fulfilled their commitments, many in the region that would 
seem to have a greater interest in stability even than we do 
don't seem to be doing their part. So, what's your assessment 
as to why that is happening, why these donor countries are not 
either fulfilling their obligations? Who should be investing in 
this humanitarian assistance in a more substantial way, who are 
not? And I'm saying name names, I think it would give the 
international community--we should create a list of shame of 
countries who are not doing their part.
    Third is this question of how we identify the support. I 
recognize the efforts you've described with going on to social 
media and saying what we're doing, but if those in need are not 
getting things, if the things that are improving their lives, 
water, food, housing don't bear the symbols of the United 
States, it sounds a lot like the first time they're hearing 
about U.S. assistance is in the military strike which is 
problematic. So, I think we want to hear about what we're doing 
to be sure people understand that we are fulfilling our 
responsibilities as humanitarians.
    And, finally, everyone I think who has looked at this 
humanitarian crisis recognizes it is a long-term problem, as 
Mr. Deutch mentioned. And what are we doing to kind of think 
about and plan the international effort to respond to this more 
long term?
    So, I thank you for your testimony, and I look forward to 
hearing your responses.
    Ms. Lindborg. Those are all excellent questions, and of the 
6.8 million who are estimated to be in need, it varies how many 
are reached by which kind of assistance. Food is obviously a 
daily need, some of the others are a one-time distribution. We 
estimate that the U.S. assistance reaches about 3\1/2\ million 
people throughout Syria. The World Food Program alone has 
targeted about 2 million people to be reached.
    We know that our combined international humanitarian 
assistance is not enough to meet all the needs. We know that 
there needs to be more, and as I think we've all noted, the 
pace of the needs are escalating faster than our ability to 
have the funding or the capacity to meet the needs. And this is 
part of the crisis dimensions that we're dealing with.
    In terms of donors who haven't stepped up to the plate, you 
know, we were very heartened in January that Kuwait sponsored 
the U.N. pledging conference, and followed that up with a $300 
million contribution. We need the rest of that region to 
similarly step up, and to do so in a coordinated way so that it 
is a part of the ability to maximize the effectiveness of our 
overall assistance.
    This is absolutely long term, and as Anne mentioned, we 
were at a meeting on Monday, our Deputy is in Sweden to look at 
how do we build a comprehensive platform. We are seeing in 
places like Lebanon, for example, that there's a convergence of 
the highest poverty levels of Lebanese with the greatest number 
of refugees. And by doing that kind of joint mapping and joint 
planning between the entire community, the World Bank, our 
development actors, our humanitarian actors, we can maximize 
the impact of our collective assistance so that we're investing 
in infrastructure that assists communities as they bear the 
weight of these refugees, as well as the refugees.
    Ms. Richard. On a couple of additional mentions, perhaps, 
in terms of the commitments I want to reinforce this praise for 
Kuwait because they not only made a big pledge of $300 million 
and held the pledging conference, they followed through quickly 
with the funding, and they funneled it through the United 
Nations and other international organizations meaning that they 
took a seat at this combined enterprise of international 
response that we are such a leader on, and so they didn't go it 
alone, or go off and do something uncoordinated. So, that is 
really the kind of response we're looking for from other 
countries, so the U.S., Western Europe, Kuwait, but then also 
Japan and Canada have really been the leaders in responding. 
And I mentioned that group to a bunch of Ambassadors and left 
Japan off, and I got a little visit from the Economics officer 
at the Japanese Embassy and he showed me how much they had 
done, and it was very impressive, so I want to specifically 
mention Japan today.
    Also, on the issue of letting people know that we're doing 
things, you know, we are doing more I think this time than ever 
before in refugee camps to include the U.S. flag which is such 
a recognizable brand on the projects that we're funding, but 
also when refugees come across the border from Syria into 
Jordan, the first flag they see, of course, is the Jordanian 
flag on the uniforms of the border patrol who are helping them 
across, but then the second flag they see is the U.S. flag on 
the side of the bus run by the International Organization for 
Migration that takes them and brings them to places where they 
get care. And that's because we are the leading donor to the 
International Organization for Migration. But we will continue 
to do whatever it takes to get the message out. The social 
media has so many different avenues, we're doing all of them 
from Twitter, to Google Plus hangouts and things that I don't 
even understand the technology for. If we're asked, we do it.
    I do think this is a long term problem. You know, 1 year 
ago what we were hoping was that the fighting would end 
quickly, change the dynamic inside Syria and people could go 
home. We no longer say that. I think this is something that 
we'll be working on for years ahead.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Cicciline. Mr. 
Weber is recognized.
    Mr. Weber. Thank you.
    Regarding the trafficking of young girls, in the Texas 
legislature we were able to pass a bill where we were able to 
do a lot of things about human trafficking, so that's one of 
the things that we remain pretty focused on. Lots of questions 
about that.
    Is there anybody keeping records about the perpetrators? Is 
that just out of the question when something like this happens? 
You know, in the Texas legislature we were able to begin to 
train law enforcement that when a young girl was caught in 
prostitution, the first thing we ought to be looking at is was 
she sex traded, and not just assume that she's guilty of a 
crime. Are we able--is there any semblance of being able to do 
that in these refugee camps and areas, and is anybody keeping 
records on it, either one of you.
    Ms. Richard. Well, I think, you know, it varies. Like we 
said, in Lebanon there are no camps, you know, and Syria and 
Lebanon it's more spontaneous settlements, so that's probably 
the most tricky places to keep an eye on people. In Turkey 
there's very good security. You know, the Turks have built over 
20 camps now, and have run them on a certain level that is very 
safe, and just much more generous than sort of the norm in the 
rest of the world. So, in Jordan the issue has been the 
security of this large camp that's the size of a city, and as 
the High Commissioner has said, when you have a city with no 
police force it's very, very dangerous, so that is why we have 
been taking all these extra measures in recent months to--
there's now--the Ambassador is here so she probably is more 
expert on this than I am, but I was talking to our Ambassador 
just the other--our Ambassador in Amman the other day about 
this. There is a fence around it now that is complete. There is 
a ditch, there is a wall, so there's a lot of things being done 
so that people can't just disappear. They can't just be walked 
off and no one has ever heard from them again.
    Mr. Weber. I know that there's rankings, and forgive me, I 
don't remember where they are, but we rank countries that are 
good on human trafficking and that are bad on human 
trafficking. How do these--how does Jordan, Lebanon, Turkey, 
how do they fit in? Do we know?
    Ms. Richard. We will get you that.
    Mr. Weber. Yes.
    Ms. Richard. And I'm very familiar with that report.
    Mr. Weber. Right, absolutely.
    Ms. Richard. It's sort of a brother organization of ours, 
the J/TIP Trafficking Persons.
    Mr. Weber. Right.
    Ms. Richard. We were just talking about the report 
yesterday but I don't know the answer to that question.
    Mr. Weber. Well, I mean, I guess you can say they've been--
the countries have been gracious enough to open their borders 
and let people in, so we can't expect them to police like you 
said the fourth largest city with no police force. Are the U.N. 
peacekeeping forces involved at all?
    Ms. Richard. No, the responsibility is for the Jordanian 
police, so we have a lot of conversations. When I go over I 
meet with the Ministry of the Interior in addition to the folks 
who are involved in planning and humanitarian response, and so 
they are doing a lot right now. It's not that there's no--there 
was no police inside the camp, and now there are--the police 
that was around the perimeter is doing patrols on the inside. 
And they're getting additional training from the British. The 
Canadians have built them a barracks, and what we are doing is 
trying to help the refugees themselves to enhance their own 
protection in a way that in U.S. neighborhoods is normal, the 
idea of having a community watch.
    Mr. Weber. Right.
    Ms. Lindborg. I would just add that, you know, counter 
trafficking in persons is a significant global initiative that 
both State and Aid are engaged in. And it really involves both 
the security aspect, the border controls. It's also the kind of 
awareness and alternative vision of options that's important 
for families and for the girls themselves. And through the 
USAID mission in Jordan, there's a new program going forward 
that is specifically about raising awareness about this issue 
in Jordan, because it is a relatively new problem that's 
emerged through this crisis.
    Mr. Weber. And forgive me, what is the weather like over 
there, are they in winter, summer? You know, what are we 
looking at here in the next few months?
    Ms. Lindborg. So, that's a good question. We were very 
concerned because it gets very hot during the summer, which is 
why we were worried about communicable diseases and water 
sanitation issues. It also gets quite cold in the winter, so we 
are gearing up now for winterization campaigns to ensure 
especially that displaced families have those essential 
supplies, warm clothes, warm place to stay to survive the 
winter.
    Mr. Weber. Okay. Are we able--I know that in my reading was 
it Lebanon or Jordan had agreed to keep their borders open, 
which is good for refugees flowing in, but what about coming 
out? Do we have checkpoints to keep young girls, for example, 
from being trafficked outside?
    Ms. Richard. All of the neighbors had open border policies 
initially, and over time as the numbers have just swelled, 
there are concerns that too many refugees are arriving, so we 
are working with these countries to insure that they are not 
alone in handling this influx, and that we can provide them 
assistance through AID bilateral assistance, through aid 
directly to the refugees, and we're trying to now enlist more 
and more of the development institutions, like the World Bank 
to help these countries manage this flow so they don't have to 
shut down their borders, because that would be a terrible move 
from the perspective of humanitarian response.
    So, right now about 2,000 per night are crossing into 
Lebanon, about 100 to 200, no, actually more, 250 to 300 per 
night crossing into Jordan, 850 per night into Turkey, 1,000 a 
day now into the Kurdish regions of Iraq now that--since the 
end of August that's been the case. And we have less specific 
numbers on Egypt. And are people going back into Syria? Yes, 
smaller numbers are going back into Syria.
    What we're concerned about is it's a risk being taken by 
people who are perhaps the head of a family who wants to check 
on their house or their property. It's a dangerous thing for 
adults, men who decide to go back and fight. And what we are 
trying to prevent happening is children going back and young 
boys wanting to go back and fight, because that seems like an 
attractive thing to them. So, we are working--our organizations 
that we fund are working to try to convince children not to go 
back in. And it is a very--particularly there I think the 
Syria/Jordan border, it's a very--there are flows in both 
directions.
    Mr. Weber. Forgive me, Madam Chair, for taking so long but 
you bring up an interesting point about going back and fighting 
because one of the discussions during the discussion about 
Syria, one of the points raised was why don't the people who 
have been displaced, particularly the men and the young boys--
now, there are those who joined World War II and they were 16, 
17 and lied about their age. So, I don't know what you're 
calling young boys, but one of the discussions was why doesn't 
those who are losing their country, why don't we arm them and 
equip them to fight alongside the rebels and let them go back 
and fight for their country? What are you considering to be a 
young boy?
    Ms. Richard. I was thinking of teenagers, you know, 11, 12, 
13, 14. And we really don't want children to----
    Mr. Weber. Right. No, I got you. Okay. Thank you. Madam 
Chair, I yield back. Thank you.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Grayson of 
Florida is recognized.
    Mr. Grayson. Thanks, Assistant Secretary, Assistant 
Administrator. I'm going to ask you what in some respects are 
hard questions, but only in the hope that you will have really 
good answers.
    If you look at the polls you see that the Federal spending 
that has the least support among the public is foreign aid. Why 
is that?
    Ms. Richard. My own sense is, having worked on this for a 
long time, is that the term foreign aid is seen as a bad thing 
because it's associating people's minds with all of the 60 
Minutes programs that showed, you know, kleptocrats during the 
Cold War, you know, carting off funds. And when we talk to the 
public about what we're doing, humanitarian assistance for 
schools, for vaccinations for children, for keeping people 
safe, keeping children from being trafficked, feeding people, 
shelter, there's tremendous support for doing that.
    So, on the specifics of what we're involved in, I think 
there is support. Of course, we rely on you and Congress to 
tell us what you're hearing from your own constituents. Foreign 
aid is only 1 percent of the Federal budget, and the money that 
we're talking about today is a tiny fraction of that. And we 
really appreciate the fact that we got sufficient funding this 
year to do a lot of good and save a lot of lives in the Middle 
East and around the world.
    What is up in the air, as you know, is what happens in the 
next few weeks with the next year, the Fiscal Year '14 budget. 
So, again, we're depending on you and your colleagues to help 
us.
    Ms. Lindborg. I would just add that oftentimes when you 
asked people if they support foreign assistance or not they say 
no because they think it's about 20 percent of the budget. So, 
if people understand that it's less than 1 percent of the 
budget, their support levels go way, way up, which has been 
demonstrated through a variety of polls over the last decade.
    Mr. Grayson. All right. Assistant Secretary, Assistant 
Administrator, if we did have an audience of millions here 
which we don't, but if we did have an audience like that and 
you had a chance to tell people what are the virtues and the 
benefits of this kind of spending, what would you want to say? 
What would you want people to understand?
    Ms. Lindborg. You know, I think this is a fundamental value 
that the American people hold very dear, which is that we 
respond when people are in trouble, that we provide the kind of 
fundamental life saving assistance that we would want to have 
were we to be in a similar situation of despair and need. And 
it is an extraordinary amount of generosity that we see in the 
American people whenever there is this kind of life saving 
need. Just as the human level, Americans are extraordinarily 
focused on providing that kind of assistance.
    I would also say that there's a security dimension to this, 
that it's in our national security to provide the kind of 
assistance in a crisis that has gone from being a Syrian 
crisis, to a regional crisis, to an international crisis.
    Mr. Grayson. Assistant Secretary?
    Ms. Richard. You know, we see that when Americans are put 
in touch with whether it's through a photograph or a really 
compelling piece of journalism, or a Skype conversation, or put 
in touch with the people who our aid is helping, they really 
want to continue that because you can see the children that are 
going to get an education who might not otherwise, or you see 
the mother who is now widowed who has to feed her children 
getting the food that she needs, and we're the top donor to the 
World Food through AID, the food to feed them. So, people in 
America are incredibly generous on situations like this, but 
they don't always hear about it or get a chance to see that. 
And I think this is where we have a responsibility to talk 
about, but also we can use your help as allies in explaining 
that.
    I was thinking about Congressman Smith's passport. It's 
probably got so many additional pages in it, it's probably 
about this thick right now from his travels. And I think that 
we don't always do a good job, we in the Executive Branch don't 
always do a good job explaining in plain English the benefits 
of our programs.
    The other thing we have to mention is that we monitor and 
evaluate where our aid goes, and how it's being used. And we 
are very much under pressure not to allow a cent of it to go to 
waste, fraud, or abuse, so that's why we have a lot of 
safeguards, more than other countries do, to make sure our aid 
is well spent. And when I travel, that's one of the things I'm 
looking at.
    You may have heard, I worked at the Office of Management 
and Budget once upon a time, so I know how precious the 
taxpayer money is. We make sure that none of it is wasted or 
very little of it, as little as possible is wasted.
    Mr. Grayson. Thanks. I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Grayson. Mr. Cotton is 
recognized.
    Mr. Cotton. Ms. Richard, Ms. Lindborg, thank you very much 
for your time and your hard work for our country.
    The Syrian refugee crisis is staggering in its scale. If I 
read your testimony correctly, Ms. Richard, we're talking about 
4 million to 5 million internally, over 2 million externally, 
which is somewhere around a quarter to even a third of Syria's 
population. Do you have any estimates, either of the witnesses, 
on what a possible worst case scenario is?
    Ms. Lindborg. You know, we keep surpassing our worst case 
scenarios. A year ago the worst case scenario was far less than 
what it is right now. We are looking at numbers that will 
continue to escalate, and we stopped putting a worst case 
scenario out there, but rather looking at trying to put into 
place the kind of systems that can absorb continuing escalation 
of need, including, for example, looking at how do you pull a 
comprehensive platform together to bring a variety of 
resources, World Bank, development resources to work alongside 
our relief funding so that in the neighboring countries we can 
address the growing impacts of stresses on basic infrastructure 
by the refugees on water, and electricity, schools, clinics. 
So, what we're turning to now is looking at all of the ways 
where we can find the additional capacity in the international 
system to respond to the growing crisis.
    Mr. Cotton. Ms. Richard, I'm sorry, I'm going to reclaim my 
time, but I would just ask if you agree with this estimate, 
it's hard to have a worst case scenario at this moment?
    Ms. Richard. I regretfully agree with that assessment.
    Mr. Cotton. Okay.
    Ms. Richard. And, also, we put a big emphasis with our 
partners on contingency planning for the worst case scenario.
    Mr. Cotton. Yes. Have you noticed either in your travels or 
your analysis sectarian patterns to the refugee camps that are 
outside of Syria, whether some are predominantly Sunni, Shiite, 
Alawite, and so forth?
    Ms. Richard. I mean, most of the refugees are Sunni.
    Mr. Cotton. Yes.
    Ms. Richard. So, the camps themselves are mostly Sunni, but 
we're--as we were saying before, we're very sensitive to 
keeping an eye out for the welfare of minority groups, and will 
continue to do so. And, you know, if the situation changed 
inside Syria, you could see the makeup of the refugees shift, 
too.
    Mr. Cotton. Yes.
    Ms. Richard. And our desire is to help whoever needs help. 
That's the humanitarian principle that we pursue. We give aid 
based on need, and not based on membership in a particular 
group.
    Mr. Cotton. Yes. I do worry significantly about the 
prospect of radicalization especially of young Sunnis within 
these camps. In the recent debate over what course of action to 
take in Syria, some argued that Bashar al Assad was actually a 
bulwark against al-Qaeda on the ground in Syria, and I have to 
strongly disagree based on my own personal experience in Iraq. 
I was there in 2006 before the surge at the worst of the Sunni-
Shiite violence, and in my experience there's nothing that 
drives Sunnis who are otherwise not a part of al-Qaeda, don't 
support it, don't agree with what it does, into the hands of 
al-Qaeda affiliated groups more than Shiite extremist violence 
and western indifference to that violence.
    We saw that in the neighborhoods I patrolled with my 
soldiers in Iraq. Sunni Iraqis who are not predisposed toward 
al-Qaeda but they went to them for protection from Mugtada al-
Sadr aligned militias from Shiite neighborhoods. And I worry 
greatly that we're seeing that kind of radicalization of the 
young Sunnis in these camps that could come back not just as a 
humanitarian matter, but could come back to harm the United 
States as those young fighters are radicalized and try to 
strike back against the United States, or against the West. 
What do you see along those lines in the camps?
    Ms. Lindborg. Well, I would just add before Anne talks 
about the camps, that one of the things we hear a lot from our 
partners is that particularly in the opposition held areas, the 
local communities have almost everywhere organized to try to 
meet their own needs and recreate social fabric and government. 
And one of the things that we're seeing is it is absolutely 
important that there be a continuous connection and stream of 
assistance that goes to those communities so they don't turn to 
some of the other more extremist sources of assistance. So, 
that's absolutely I think a piece of what will be important to 
continue.
    Ms. Richard. Yes, just to echo what Nancy said, and 
specifically in the camps, our programs are trying to keep 
children in a safe place and have them educated, and with 
people who are interested in their best interests and nurtured 
so that they are not attracted by extremist elements.
    Mr. Cotton. Thank you both for your efforts. Eager to help 
in any way I can, because I do believe that in the long term 8- 
and 9-year-old Sunnis in these camps are being radicalized by 
what they see happening in Syria, and Western indifference to 
it is a grave national security threat to our country.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Cotton, I agree. 
Mr. Schneider would be next, but he's going to jump over so 
that Mr. Connolly can be recognized due to a previous 
engagement.
    Mr. Connolly. Thank you, Madam Chairman, and thank you, Mr. 
Schneider. I appreciate the courtesy, and welcome to both of 
our panelists.
    Would we assess the response of the donor community as 
disappointing in terms of the provision of humanitarian 
assistance for the swelling refugee population from the Syria 
conflict?
    Ms. Richard. I think the response of the donor community 
has been the usual in that the same leading donors are leading 
this time, and the funding raised for Syria is about the same--
this is what Valerie Amos has told us, for what was raised for 
the whole world last few years. So, the problem is the usual is 
not enough. This is such an extraordinary crisis, it's having 
regional impact. It is a major displacement of populations that 
needs much more than the usual. It needs people, governments, 
countries stepping up and doing much more than the usual.
    We are fortunate in that in Fiscal Year 2013 we were 
provided sufficient funding from the Congress to lead in the 
response to this, and we need to encourage other emerging 
donors to step forward and to do more, and surpass the usual. 
And the one example we've given is Kuwait, which in the past 
was not a member of this major donor set, and has become one in 
response to this crisis. And we want to see more countries do 
that.
    Mr. Connolly. Presumably, we're pressing the Saudis and 
others to respond in kind.
    Ms. Richard. Absolutely. We are pressing major governments 
in the region, and also elsewhere around the world to do more.
    Mr. Connolly. Do I have it correct that about 70 percent of 
the refugees from the conflict are actually not in camps, 
they're living in villages in the host countries?
    Ms. Richard. 70 to 75 percent of refugees are not in camps. 
All of the refugees in Lebanon are not living in camps. They 
don't have camps. And in Jordan and Turkey, really the majority 
of refugees are outside the camps. The reason you hear about 
camps is because for a photojournalist, the easiest way to find 
refugees and photograph them is to go to a camp, but when we 
travel we also meet with refugees in homes in Amman, or in 
Mafraq, or in Istanbul, so we are meeting with the refugees 
where they are. And that for aid workers becomes a challenge, 
is trying to get aid to them where they're living.
    Mr. Connolly. That's right. And if I were the host country, 
I might also while wanting to be welcoming, the numbers are so 
substantial and the radicalization that was just--potential 
radicalization that was just referenced might be of concern to 
me in terms of stability for my own country, might it not?
    Ms. Lindborg. It is, and that's one of the reasons that we 
have increased our assistance to the host communities. There is 
an incredible stress on the infrastructure of countries like 
Jordan and Lebanon on their water, their electricity, schools, 
and clinics, so we have in collaboration with those governments 
pivoted our USAID assistance to put more focus on supporting 
those communities that are hosting the refugees. And we've used 
our contingency funds, like the Complex Crisis Fund, as well as 
our education and our health programming to look at all the 
ways to help communities who initially very generously welcomed 
the refugees. And as the burden has become greater and greater, 
the possibility of tension emerging has increased, so we're 
very focused on providing the kind of support that Jordan and 
Lebanon need to cope with this influx of refugees.
    Mr. Connolly. And isn't there another concern which is that 
the Syrian regime could see these refugee populations whether 
in camps or not in camps as a hotbed of sedition and 
opposition, and perhaps be tempted to engage in military action 
against them? How concerned are we, Madam Assistant Secretary, 
about that prospect? And have there, in fact, been incursions 
by the Syrians to that effect?
    Ms. Richard. Every time I travel in the region and meet 
with government officials, they point out to me how close the 
borders are to their population center, certainly in Southern 
Turkey that's the case. Beirut, Lebanon is a short drive from 
Damascus, in Northern Jordan I've been up to the border and 
seen people come across from Southern Syria, so being there and 
realizing how close the population centers are really drives 
home this point of the security concerns that the neighbors 
have.
    What my sense is, is that the Syrian regime has focused its 
voracity on the people inside Syria and that is why they are 
fleeing to the camps. There have been, as you well know, you 
know, some incursions across the border with Turkey, that 
Turkey has responded to. That's not my portfolio, but it's 
something that is brought up every time we travel and we meet 
with government officials.
    Mr. Connolly. Thank you, Madam Chairman. Thank you for your 
courtesy. And, Mr. Schneider, thank you especially for your 
courtesy.
    Ms. Ros-Lehtinen. Thank you very much. And Mr. Schneider 
continuing his mitzvot for the day, now yields to Ms. Meng of 
New York.
    Ms. Meng. Thank you, Madam Chairwoman. Thank you, Mr. 
Schneider.
    This question could go to either witness. I'm trying to get 
a sense of who the refugees are exactly, and what life is like 
in these refugee camps. There was an article in the New Yorker 
by David Remnick on Zaatari and the refugees, and an excerpt 
says the refugees are border people. Many of them are traders, 
smugglers accustomed to shuttling around Jordan, Syria, Turkey, 
and Lebanon. He quickly discovered that the smugglers hardly 
stop work when they go to the camp. The battle wings didn't get 
UNHCR tents by accident. What is your impression of this 
characterization?
    Ms. Richard. I read the David Remnick article, I thought it 
was fairly accurate in its overarching description of the 
crisis, and specifically the Zaatari camp. You know, the 
Zaatari camp sprung up in a very short time, a period of a few 
short weeks, and has been growing ever since, so it wasn't a 
planned community done in a calm situation. So there's been a 
bit of catch up to enhance the security there, and to control 
all the things flowing in and out of there. And right now it's 
a much more secure place than it was months ago. But it is 
absolutely true that people in Southern Syria normally traveled 
across the border with Jordan. Many Syrians were living in 
Jordan before the outbreak of violence. There are relatives of 
people on both sides of the border.
    In the early days before the camp was set up, I was 
visiting transit camps that received refugees when they first 
came across, and they could be bailed out by relatives or 
friends, and many had relatives or friends, or even strangers, 
you know, well spirited Jordanians who went to these transit 
centers and said I'll take some people into my home. I'll help 
these Syrian brothers. So, there is--in normal times there's a 
great deal of back and forth across those borders. Right now, 
the border patrol is very focused on who's coming across, and 
we want innocent civilians who are fleeing violence to get 
across, and they are also, of course, equipped to keep out bad 
actors. And that's a very difficult thing to do. The border 
patrol, from visiting them I know this, they have been equipped 
because we have such good relations, military-to-military 
relations from the U.S. and Jordan, they have topnotch ways of 
observing the border, but it's a very dangerous place right 
now, I think.
    Ms. Lindborg. You know, I would just say I thought the 
article was very well written and capturing the human 
dimension, and there was one piece of it that I want to 
underscore, and that is alongside the trauma that these 
families experience, the women, the children, there's also a 
dimension of helplessness and boredom that sets in for children 
who aren't able to go to school. And this is true whether 
you're in an internally displaced camp inside Syria, or 
outside. And that's a part of what informs some of the programs 
that we seek to do, is to provide an alternative to 
helplessness and boredom which is a feature alongside a lot of 
the trauma and the physical pain that these folks have 
experienced.
    Ms. Meng. Thank you. And just to continue a little bit on 
what Mr. Grayson mentioned, and what you mentioned about the 
American flag, how do the refugees view America, and what we're 
trying to do to help them? And what can we do in Congress to 
help you to do an even better job on marketing that goodwill?
    Ms. Richard. In my conversations with refugees, part of the 
message that they're giving us is thank you, but part of the 
message is that they're really concerned about their relatives 
inside Syria. More than anything else, that's the main message 
that I get, is concern for inside Syria. And they talk less 
about their own personal needs, and they talk about their 
desire to see an end to the fighting inside.
    So, you know, as an Assistant Secretary, when I travel now 
I'm in a bit of a security cocoon, and I'm also meeting with 
people. I can't wander around camps like I used to, so I'm 
perhaps not the best person to ask but, you know, they are very 
brave sometimes of pushing me as a representative of the United 
States to do more, to do more, but mostly less for themselves 
and more for their relatives they've left behind.
    Ms. Lindborg. I thank you very much for that question. And 
in terms of how you can help, I mean, first of all, I would 
echo the thanks that both of us have already said, the support 
that Congress is providing that enables these programs to go 
forward is absolutely essential. It's lifesaving. It's having 
an enormous and profound impact. Thank you for this hearing. It 
gives us yet another opportunity to highlight the fact that the 
American people are standing by the Syrian people. And we would 
welcome all the ways in which all of you can be a part of 
amplifying that message. That's something that we spend a lot 
of time doing when we travel to the region, is just letting the 
Syrian people know that they are not forgotten. And I wanted to 
say that to Mr. Cotton. We have--we spend a great deal of time 
and energy making sure the Syrian people know they are not 
forgotten. We are there, and we are providing lifesaving 
humanitarian assistance every day throughout the region, and 
inside.
    Ms. Meng. Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you very much. Now, we saved the 
best for last here. Mr. Schneider, thank you so much. He will 
be our wrap up, and our closer. Thank you.
    Mr. Schneider. Thank you, Madam Chairman, and thanks to 
both of you for spending the time here, sharing with us your 
perspectives and experience. This has been an incredibly 
informative hearing. The questions, but in particular the 
answers to the questions have been crucial, so thank you.
    I'm going to go to where you started. You said this is 
vastly different than it was 1 year ago, and that our worst 
case scenarios 1 year ago have long since been exceeded. And we 
sit with a question here and so many more questions I know that 
follow behind it. The most important thing I'll emphasize is 
that the Syrian people need to know that we do care. This is, I 
think, our fourth hearing on Syria, at least. We will, I'm 
sure, have more, and that doesn't count how many meetings and 
conversations we continue to have. It is something that has our 
attention because it is important to the region, to the world, 
and to the United States.
    Assistant Secretary, you talked about the long term, that 
this is going to be an issue for a long time, that camps, 
there's a generation being created in these camps as refugees. 
Even though we can't describe what the worst case scenario is, 
I wonder if you could possibly describe long term what's the 
best case scenario, 5, 10, 15 years from now?
    Ms. Richard. What we need is for Syrians to be able to go 
home and to restart their lives. Their houses have been 
destroyed, some of them their jobs have been destroyed. If they 
worked in a pharmaceutical factory, they've all been leveled. 
And if they had a workplace, their colleagues have been sent 
all over the region, so we need them to put their lives back 
together again, restore the pipes that transport clean water to 
their homes. But I'm particularly worried about children. 
Children going uneducated means that you have a whole 
generation then who ought to be the future leaders of Syria, 
who will not be equipped to do that.
    You know, I also worry about college age youth because they 
ought to be in school learning things so that they can be the 
future engineers, they can be the future problem solvers, and 
they're not. They're stuck in camps, or they're out trying to 
work in low wage jobs, perhaps in places where they're not well 
appreciated to let their families survive. This is a tragic 
poor use of human capital. We should be--this is the future of 
Syria, and they are not where they should be, and we're very 
concerned about it.
    Ms. Lindborg. Just a quick footnote to that. There's a 
recent U.N. assessment that shows that Syria in 2 years has 
lost 35 years of development gains, so even if the conflict 
ended tomorrow, conservatively, optimistically we're looking at 
about a decade to rebuild some of the essential infrastructure,
    Mr. Schneider. Right. And to take off on the 25 years, 
that's 35 years of infrastructure, that's 35 years of building 
communities, preparing them for a 21st century that has been 
knocked back, and that's going to take that time to go forward.
    Obviously, one of the concerns I have that I think many of 
us share on the committee, we need to be there for the long 
term. We have to be engaged, the region has to be engaged. 
Syria is too critical of a state in a region with so many 
issues all around it. What do we have to do to make sure that 
we don't lose the focus that you have brought to this issue now 
for a couple of years?
    Ms. Richard. This is a perennial problem for Americans in 
responding to major crises overseas, is that when the crisis 
leaves the headlines does our interest dry up, and does our 
support dry up? So, this is why in addition to caring about 
Syria, both of us care about things happening in the rest of 
the world, as well. We care about Afghan refugees still living 
in Pakistan. We care about the Horn of Africa, so we're trying 
to make sure that other crises are not forgotten or other 
longer term protracted situations are not forgotten, at the 
same time we focus a lot of our attention on Syria.
    And this is where I think the Congress can be helpful, is 
to raise the profile of this crisis, but at the same time 
understand in authorizing and appropriating programs that we 
are looking at situations that we're trying to resolve that 
happened many years ago. It also means that the U.S. not do it 
alone, that we do it with other donor governments, that we work 
together in coalitions, that we continue to build this 
international group of donors. And that's partly why in looking 
at the so called emerging donors, we want to bring more 
countries along on the Syria crisis, but then have them stay 
with us and care about whatever tomorrow may bring, as well, 
and work with us on a global scale.
    Mr. Schneider. Well, thank you. I'm out of time. If I can 
close with one thought. You said, Assistant Secretary, that the 
usual is not enough, and I think nothing could be more true. 
That's one of the most important things I'll take from this 
hearing. But I want to thank the two of you because not usual, 
but extraordinary efforts are undertaken with your leadership. 
So, thank you very much, and thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you. Excellent closing remarks. 
And, of course, all of these issues have an impact on our U.S. 
national security interest, on the stability of our allies, 
like Jordan and Israel throughout the region, so thank you very 
much for the important work that you do day in and day out.
    And with that, the subcommittee is adjourned. Thank you, 
ladies.
    Ms. Lindborg. Thank you very much.
    [Whereupon, at 12:19 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre></body></html>
